U.S. Department of Labor                Office of Inspector General
                                        Washington. D.C. 20210




       MAR 	 -1 2012

    MEMORANDUM FOR: 	            T. MICHAEL KERR 

                                 Chief Information Officer 



                                 't,e-,,-~ -P cfoLV~ 

    FROM: 	                      ELLIOT P. LEWIS 

                                 Assistant Inspector General for Audit 


    SUBJECT: 	                   Alert Memorandum: DOL Needs to Immediately Take Corrective
                                 Action to Safeguard Information Technology Equipment
                                 Report Number: 23-12-005-07-001

   The purpose of this memorandum is to alert you to a matter related to the effectiveness of the
   Department of Labor's electronic media sanitization practices that requires immediate corrective
   action. As part of our ongoing audit related to media sanitization, we have identified information
   technology (IT) equipment that was ready for imminent disposal containing government business
   information and personal documents. We also identified improper handling of equipment during
   the sanitization process and inaccurate recording of the equipment in property management
   records.

    We have reviewed approximately 70 pieces of equipment at this point and identified the
    following major concerns:

       .. 	 Four hard drives were not sanitized and contained government business information and
            personal documents. We have not yet performed analysis to determine if this includes
            personally identifiable information.
       .. Eight computers contained active Random Access Memory (RAM), which should have
            been degaussed.
       .. Two desktop towers were discovered in a trash receptacle.

   An additional major concern is that five machines on a disposal manifest could not be located,
   which indicates the Department lost accountability over the equipment.

   Based on the results of our limited testing at this point in our audit, it is evident that the
   Department is not ensuring sanitization of IT equipment prior to disposal. As a result, the
   Department is at risk of releasing sensitive infonnation, including personally identifiable
   information. We recommend that the Department immediately stop disposal of any IT equipment
   Department-wide until it can ensure that 100 percent of the equipment has been properly
   sanitized.

   The results included in this interim report are based on our work to date. Fieldwork is continuing
   and we will provide overall results when our audit work is complete. Please respond to this
   report within 3 days with a corrective action plan. Please contact Keith Galayda, Acting Deputy
   Assistant Inspector General of Audit, at (202) 693-5259, if you have any questions.

                             Working for America~' IvVorkforce
